OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BRAZIL’S
HEALTH PROGRAM
AUDIT REPORT NO. 1-512-07-007-P
March 20, 2007




SAN SALVADOR, EL SALVADOR
                       Office of Inspector General




       March 20, 2007


       MEMORANDUM

       TO:                USAID/Brazil Director, Jennifer Adams

       FROM:              Acting RIG/San Salvador, Jerry Hintz /s/

       SUBJECT:           Audit of USAID/Brazil’s Health Program (Report No. 1-512-07-007-P)

       This memorandum transmits our final report on the subject audit. In finalizing the report, we
       carefully considered your comments and have included your comments in Appendix II.

       The report includes 12 recommendations for USAID/Brazil’s action. Based on your comments,
       we consider that a management decision has been reached on ten of the recommendations
       (Recommendations Nos. 1-6 and 9-12). Management decisions for Recommendations Nos. 7
       and 8 can be recorded when USAID/Brazil has developed a firm plan of action, with target
       dates, for implementing the recommendations. The Audit Performance and Compliance
       Division (M/CFO/APC) will record final action on all the recommendations when planned
       actions have been completed.

       I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

     Audit Objectives .......................................................................................................... 5

Audit Findings ................................................................................................................. 6

Did USAID/Brazil’s health activities achieve the planned results described
in USAID/Brazil’s strategic plan, in Congressional Budget Justifications,
and in grant and contract documents?.............................................................................. 6

     Performance Management Plan Should Have Baseline
     Data and Targets ........................................................................................................ 7

     Outputs in Partners’ Work Plans Lacked Performance
     Targets ....................................................................................................................... 8

     Partners' Data Not Reliable......................................................................................... 9

     Delays in Providing Advances to State TB programs Impeded
     Program Activities ..................................................................................................... 11

Did USAID/Brazil’s reporting on its health activities provide stakeholders
with complete and accurate information that measured progress and the
results achieved? ............................................................................................................ 12

     USAID/Brazil Can Improve Its Reporting .................................................................. 12

     Data Quality Assessments Were Not Performed ...................................................... 15

Other Matters .................................................................................................................. 15

     Annual Audits of Foreign Recipient Not Completed .................................................. 15

     Suspected Fraud Not Reported to Office of Inspector
     General ..................................................................................................................... 17

Evaluation of Management Comments ....................................................................... 18

Appendix I – Scope and Methodology ........................................................................ 19

Appendix II – Management Comments ....................................................................... 21
SUMMARY OF RESULTS
The World Health Organization has identified 22 “high burden” countries world-wide
responsible for 80 percent of all tuberculosis (TB) cases. Brazil ranks 16th among these
countries and is one of the two countries responsible for 50 percent of all TB cases
reported in Latin America. It is estimated that more than 50 million people in the country
are infected with the bacterium that causes TB. (See page 3.)

The HIV/AIDS epidemic in Brazil is classified as “concentrated,” meaning that it is found
mostly in certain groups who exhibit risky sexual behavior (males who have sex with
other males and female sex workers) and drug users who inject themselves with
contaminated needles. Nevertheless, HIV/AIDS prevalence is estimated to be 0.65
percent of the adult population, which is higher than most other Latin American
countries.

The Regional Inspector General/San Salvador, as part of its fiscal year (FY) 2007 audit
plan, performed this audit to determine whether USAID/Brazil’s health activities achieved
the planned results described in USAID/Brazil’s strategic plan, in the Congressional
Budget Justifications, and in grant and contract documents and whether USAID/Brazil’s
reporting on its health activities provided stakeholders with complete and accurate
information on the progress and the results achieved. (See page 5.)

USAID achieved important results with regard to its tuberculosis and HIV/AIDS program
activities. However, we could not measure or evaluate the Mission’s progress in
achieving some targets because the Performance Management Plan, partner
agreements, and work plans did not include results or baseline data. Also, delays in
providing funding to two state TB programs impeded the activities they were expected to
carry out. (See page 6.)

USAID/Brazil’s reporting on its health activities did not provide stakeholders with
complete and accurate information on the progress of the activities and the results
achieved. USAID/Brazil reported incomplete or inaccurate results for its HIV/AIDS and
tuberculosis activities in its FY 2005 Annual Report. In addition, the Mission did not
maintain official files supporting reported data, and data quality assessments were not
performed. (See page 12.)

Two other matters came to our attention during the course of the audit that require
corrective action by USAID/Brazil. Specifically, required financial audits were not
conducted (see page 15), and suspected fraud involving USAID funds was not reported to
the Office of the Inspector General. (See page 17.)

This report contains the following 12 recommendations for USAID/Brazil:

•   Update its Performance Management Plan for its health strategy with measurable
    indicators that include baseline data and targets, and include only those indicators
    that the Mission can materially affect through its activities. (See page 8.)

•   Develop specific planned outputs that include targets and expected completion dates
    in partners' workplans. (See page 9.)


                                                                                        1
•   Reassign or hire someone to take on the duties of the Cognizant Technical Officer
    (CTO) for health activities. (See page 10.)

•   Provide partner organizations and USAID health officers and the CTO with training
    such that the partners are able to accurately report on their performance and
    maintain sufficient supporting documentation. (See page 11.)

•   Develop a plan for avoiding the funding delays that have affected the state TB
    programs in Rio de Janeiro and Sao Paulo and verify that funds are received in a
    timely manner. (See page 12.)

•   Maintain supporting documentation in official files relating to performance data
    reported in its annual reports. (See page 14.)

•   Disclose the use of any limitations on data reported in its annual reports. (See page
    15.)

•   Perform validation and verification of partners reported results. (See page 15.)

•   Perform a data quality assessment as required by the Automated Directive System.
    (See page 15.)

•   Develop and maintain an inventory of awards to foreign recipients to determine
    required audits. (See page 17.)

•   Conduct annual audits of its foreign recipients in accordance with the Guidelines
    for Financial Audits Contracted by Foreign Recipients. (See page 17.)

•   Send a reminder to its CTOs to report suspected fraud to the Certifying Officer and
    the Office of the Inspector General. (See page 17.)

In its response, USAID/Brazil agreed with all 12 recommendations included in the draft
audit report. The Mission included an action plan in its response with a schedule to
complete implementation of the recommendations for ten (Recommendations Nos. 1-6
and 9-12) of the twelve recommendations made. Management decisions for these
recommendations have been made and management decisions for Recommendations
Nos. 7 and 8 can be recorded when USAID/Brazil has developed a firm plan of action,
with target dates, for implementing the recommendations.

Management comments are included in their entirety in Appendix II.




                                                                                        2
BACKGROUND
Brazil ranks 16th among the 22 “high burden” countries that are responsible for 80
percent of all tuberculosis (TB) cases in the world. Brazil is one of the two countries
responsible for 50 percent of all TB cases reported in Latin America. The World Health
Organization (WHO) estimates that more than 50 million people in Brazil are infected
with the TB bacilli that causes most cases of TB.1 A rise in HIV infection levels and the
neglect of TB control programs have caused a resurgence of TB, suggesting that the
management of TB is a priority public health goal. The prevalence of HIV/AIDS is
estimated to be 0.65 percent of the adult population, which is higher than most other
Latin American countries. HIV/AIDS is found mostly in groups that exhibit risky sexual
behavior (especially males who have sex with other males and commercial female sex
workers).

At the beginning of 2004, the Government of Brazil officially adopted the Direct
Observed Therapy Short-Course (DOTS), the internationally-recommended TB control
strategy, in the new National TB Control Program. In this program, the government
adopted the WHO goals of 70 percent case detection, 85 percent cure rate and a
discontinued treatment rate of 5 percent. The National TB Program also prioritized the
implementation and expansion of DOTS in 315 municipalities in the country where 70
percent of all TB cases occur. The National TB Control Program is jointly implemented
by the Ministry of Health and health authorities at state and municipal levels. Among
other interventions, the program provides anti-TB drugs to patients free of charge.

USAID/Brazil’s strategy for reducing the transmission of TB is to increase the use of
DOTS in targeted areas. To achieve this goal, USAID/Brazil has invested in activities
which support all five elements of DOTS:

     1. Government commitment to ensure sustained and comprehensive TB control
        activities.

     2. Case detection by sputum smear microscopy2 among symptomatic patients self-
        reporting to health services.

     3. Directly observed therapy during the intensive phase of treatment for all newly
        infected TB cases.

     4. A regular uninterrupted supply of all essential anti-TB drugs.

     5. A standardized recording and reporting system that allows assessment of case-
        finding and treatment results.

1
    TB is a contagious disease. Only people who are sick with TB in their lungs are infectious. Not
    everyone who is infected develops the disease. However, one in ten latent infections will
    progress to active TB disease which, if left untreated, will kill more than half of its victims.
    When infectious people cough, sneeze, talk or spit, they propel TB germs, known as bacilli,
    into the air. A person needs only to inhale a small number of bacilli to be infected.
2
    Sputum smear microscopy examines matter coughed up from the respiratory tract for TB bacilli.



                                                                                                  3
More specifically, USAID/Brazil is providing technical assistance to the Ministry of Health
Program through Sociedade Civil Bem Estar Familiar no Brasil (BEMFAM) and four
other organizations supported by USAID/Washington global field initiatives:

•   BEMFAM is a Brazilian non-governmental-organization (NGO) engaged in sexual
    and reproductive health activities. It provides support to the MOH for the expansion
    of the DOTS strategy in 6 of the 15 targeted priority municipalities in the state of
    Pernambuco by providing training to health professionals and developing
    informational and educational materials.

•   The Pan American Health Organization (PAHO) is an international public health
    agency that serves as the regional office for the Americas of the World Health
    Organization. It strengthens the national TB program by conducting training and
    monitoring the implementation and expansion of DOTS.

•   The U.S. Centers for Disease Control and Prevention (CDC) provides technical
    assistance to improve the management of the five components of DOTS. It also
    conducts training, expands the distribution of incentives to assist patients in
    completing treatment, and strengthens laboratories’ capacity and information
    systems in the states of Rio de Janeiro and Sao Paulo.

•   Management Sciences for Health – Rational Pharmaceutical Plus (RPM) provides
    technical assistance to the Helio Fraga TB Reference Center, which is responsible
    for developing, analyzing and transferring technologies to combat TB in the country
    and to monitor approximately 1,300 cases of multi-drug resistant TB. More
    specifically, it evaluates the appropriateness of current drug regimens used for
    treating TB cases, decentralizes the diagnosis and treatment of multi-drug resistant
    TB, and improves the quality of TB medicines.

•   The Tuberculosis Coalition for Technical Assistance (TBCTA), which is an umbrella
    organization that includes the World Health Organization, PAHO, and others,
    provides consultation and technical assistance to the federal TB program and to
    USAID/Brazil’s project areas in the state of Rio de Janeiro. It also accelerates the
    implementation and expansion of the DOTS strategy and improves the design,
    implementation, monitoring, and evaluation of TB programs at all three levels of
    government.

With regard to HIV/AIDS activities, USAID/Brazil’s program was implemented by Private
Agencies Coordinating Together (PACT). PACT is a non-profit international organization
that aims to contribute to social development by forming networks and partnerships with
local organizations and the government. PACT’s program aimed at preventing
HIV/AIDS infection among the most vulnerable groups and reducing the incidence and
prevalence of HIV/AIDS among vulnerable populations. PACT implemented its activities
under two awards.




                                                                                         4
The HIV/AIDS component of USAID/Brazil’s Strategic Plan suffered a serious setback in
fiscal year (FY) 2005 when the Brazilian Government disagreed with USAID policies
concerning HIV/AIDS prevention activities. As a result, no FY 2004, 2005 and 2006
obligated funds were disbursed for HIV/AIDS activities and FY 2003 funds continued to
be used during this period.

During the period between October 1, 2004 through September 30, 2006, USAID/Brazil
obligated $20.7 million for its TB and HIV/AIDS program activities and disbursed a total
of $14.2 million.

AUDIT OBJECTIVES
As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•      Did USAID/Brazil’s health activities achieve the planned results described in
       USAID/Brazil’s strategic plan, in Congressional Budget Justifications, and in
       grant and contract documents?

•      Did USAID/Brazil’s reporting on its health activities provide stakeholders with
       complete and accurate information that measured progress and the results
       achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      5
AUDIT FINDINGS
Did USAID/Brazil’s health activities achieve the planned results
described in USAID/Brazil’s strategic plan, in Congressional
Budget Justifications, and in grant and contract documents?
USAID achieved important results with regard to its tuberculosis and HIV/AIDS program
activities. However, we could not measure or evaluate the Mission’s progress in
achieving some targets because the Performance Management Plan, partner
agreements, and work plans did not include results or baseline data. Also, delays in
providing funding to two state TB programs impeded the activities they were expected to
carry out.

Tuberculosis - USAID/Brazil has played a major role in the adoption and expansion of
the Direct Observed Treatment Short-Course (DOTS) strategy, especially in 3 of Brazil’s
26 states. USAID/Brazil provided support to 35.6 percent of Brazil’s municipalities
identified as priority by the Brazilian government. In 2004, the Ministry of Heath reported
that 54 percent of health facilities were implementing DOTS.3 In 2006, 66 percent of
health facilities were using DOTS. The number of health facilities implementing DOTS in
the 315 priority municipalities had reached 83 percent in 2006. The percentage of new
infectious TB patients4 that were treated using DOTS has also increased significantly.
Based on the results reported by the national tuberculosis control program, this
percentage has increased from 53 percent in 2004 to 62 percent in 2005. In some
USAID/Brazil assisted areas, very positive results were achieved as shown in Table 1
below.

Table 1:     Selected TB Related Indicators, in the USAID/Brazil assisted
municipalities of Carapicuiba in Sao Paulo State and Itaborai in Rio de Janeiro
State, 2005

                        Indicator                           Carapicuiba           Itaborai
    Percentage of health facilities with DOTS                         75.0%              82.5%
    Percentage of new infectious TB patients in DOTS                  92.8%              88.8%
    Cure rate of new infectious TB patients in DOTS                   88.3%              77.3%
    Percentage that discontinued treatment                             9.1%               3.4%
    Percentage of HIV/AIDS Testing among TB patients                  72.0%              80.1%

Source: MOH information system

HIV/AIDS - With regard to the HIV/AIDS activities, during the life of the project, PACT
provided managerial and technical support to 22 local non-governmental organizations
to carry out over 25,000 HIV/AIDS prevention activities reaching more than one million

3
     This percentage was calculated based on the Ministry of Health World Health Organization’s
     definition of percentage of health service units with the TB program that have at least one
     sputum smear positive case in DOTS.
4
     Infectious TB patients are those that are pulmonary sputum smear positive.


                                                                                              6
people and distributing 3.5 million condoms. PACT also facilitated the expansion and
coverage of HIV/AIDS services and implemented a social marketing program through a
U.S. sub-contractor – the Futures Group – and two additional sub-contractors (John
Snow International and BEMFAM) and sub-grantees. The program expanded condom
distribution and sold 4.7 million condoms through traditional and non-traditional outlets.

Even though USAID/Brazil contributed to important results, as outlined above, we could
not evaluate whether USAID/Brazil’s health activities achieved planned results because
of the limitations described in the following sections.

Performance Management Plan
Should Have Baseline Data And
Targets
    Summary: According to USAID’s Automated Directives System (ADS), performance
    indicators should be precisely defined in the PMP and should measure changes that
    are clearly and reasonably attributable, at least in part, to USAID efforts. Of the four
    performance indicators listed in the Mission’s PMP, none contained annual targets or
    baseline data. In addition, the performance indicators selected by the Mission were
    not significantly influenced by Mission activities and not clearly defined. This
    occurred because Mission staff were unaware of the ADS requirements, and Mission
    management did not verify that the requirements were met. It is difficult to ascertain if
    results were actually achieved if targets are not clearly defined and influenced by
    Mission activities.

According to ADS 203.3, performance indicators should be (1) precisely defined in the
PMP and (2) should measure changes that are clearly and reasonably attributable, at
least in part, to USAID/Brazil efforts. Furthermore, objectives should be manageable in
that they can be materially affected by USAID assistance. In addition, ADS 201.3.7.6
states that missions must prepare a PMP that contains baseline data and targets.

USAID/Brazil included four indicators in its PMP. These indicators were as follows:

•     Indicator 1 - Percent condom use with last non-regular sex partner among key
      populations.

•     Indicator 2 - Percent condom use at last sex act.

•     Indicator 3 - Percentage of priority municipalities in target areas that have adopted
      DOTS as their universal TB control strategy.

•     Indicator 4 - Percentage increase in case detection through bacilloscopy.5

USAID/Brazil’s PMP did not include baseline data and targets for its performance
indicators relating to its HIV/AIDS and TB activities. Furthermore, the PMP was not
updated with actual results to track progress on an annual basis.
5
    This is a method of identifying TB bacterium by examining a sample of sputums through
    microscopy.



                                                                                                7
In addition, it was unclear if the performance indicators selected are significantly
influenced by Mission activities because they were not clearly defined. For example, the
Mission did report on one indicator in the FY 2005 annual report that stated that as a
result of capacity building in DOTS, 64 percent of Brazil’s 315 priority municipalities now
have supervised treatment compared to less than 10 percent at the beginning of
USAID/Brazil’s present strategy. However, USAID/Brazil’s direct assistance for FY 2005
TB activities was limited to 15 out of 315 priority municipalities, in 3 of 26 Brazilian states
(Rio de Janeiro, Sao Paulo and Pernambuco.) The Mission should report results that
are attributable to USAID efforts in the geographical areas where USAID/Brazil provided
assistance.

The responsible Mission staff member stated that he was unaware of the ADS
requirements, and Mission management did not ensure that the requirements were met.
It is difficult to ascertain if results were actually achieved if targets are not clearly defined
and influenced by Mission activities. Further, without a well-defined strategy and PMP
with measurable indicators, the Mission will be unable to clearly plan, coordinate, and
monitor the implementation of its TB and HIV/AIDS program through its partner
organizations.

To improve the accuracy of reporting on the health program, we are making the following
recommendation:

    Recommendation No. 1: We recommend that USAID/Brazil (a) update its
    Performance Management Plan for its health strategy with measurable indicators
    that include baseline data and targets, and (b) include only those indicators that
    the Mission can materially affect through its activities.

Outputs in Partners' Work Plans
Lacked Performance Targets
Summary: ADS Guidance states that specific outputs are critical to achieving results.
Based on a review of partners’ work plans we found that 55 percent of outputs in
partners’ work plans lacked performance targets. The Mission was unaware of the ADS
guidance on developing outputs. As a result, the Mission could not benchmark and
measure progress and lacked a valuable management tool.

Automated Directives System (ADS) 202.3.6 states that in order to monitor the quality
and timeliness of outputs produced by implementing partners, outputs should be
specific. The guidance also states that outputs are critical to achieving results. ADS
200.3.2.1 states that performance outputs need to be explicit in order to manage for
results. Our review of partners’ work plans found that 55 percent of the outputs did not
contain well defined, specific targets as shown in Table 2 below:




                                                                                               8
Table 2: Partner Work Plans, Outputs and Targets, FY 2005 and FY 2006

Partner/Program                            Number of Outputs Number of Outputs
                                                              Without Targets
PACT NGO Program                                  11                 9
PACT Social Marketing Program                      6                 4
BEMFAM                                             8                 1
MSH-RPM Plus                                      4                 2
PAHO                                               1                 0
TBCTA                                              4                 3
CDC Sao Paulo                                      9                 4
CDC Rio de Janeiro                                6                 4
Total                                             49                27

The health team was unaware of the ADS guidance on developing outputs. As a result,
the Mission could not benchmark and measure progress and lacked a valuable
management tool.

   Recommendation No. 2: We recommend that USAID/Brazil requires its partners
   to develop specific, planned outputs that include targets and expected
   completion dates.

Partners’ Data Not Reliable

Summary: According to ADS guidance, performance data should be accurate and
reliable and missions should take steps to ensure that submitted data is adequately
supported. The progress reports submitted by partners to USAID/Brazil did not always
include complete and useful information that described progress achieved during the
reporting period. The Mission lacked a clear understanding of the responsibilities of
Cognizant Technical Officers (CTO), which includes systematically verifying reported
data. Mission management relied on Mission staff to comply with ADS requirements, but
the staff was unaware of the requirements. As a result, USAID/Brazil could not reliably
determine whether partners were meeting their objectives. Without accurate and reliable
data, sound management decisions cannot be made.

As stated in ADS 202.3.6.1, assessing performance refers to whether the outputs
produced by the contractor or grantee are of acceptable quality. According to ADS
203.3.5 and USAID TIPS 12, (supplemental guidance referenced by the ADS)
performance data should be accurate and reliable, and missions should take steps to
ensure that submitted data is adequately supported.

The USAID Cognizant Technical Officers (CTOs) Guidebook on USAID Acquisition and
Assistance states that CTOs are charged with the responsibility of ensuring that data
reported by implementing partners are accurate. Accordingly, CTOs are required to
perform data verification procedures to assess the accuracy of reported results.

A review of progress reports submitted by the various partners revealed that some of the
progress reports were incomplete, unsupported, and did not measure progress towards
achieving the program’s objectives. Also, the information contained in progress reports



                                                                                      9
was sometimes too vague to be of any utility in measuring progress made toward
achieving program objectives. For example, there was no mention in the progress
reports of the dates on which training was conducted, or the number of participants
trained, even though training was a major activity for all partners. Also, partners
reported on the number of meetings organized and processes rather than on actual
performance targets. Several specific examples of inaccurate or incomplete results, and
inadequate supporting documentation follows:

•   One grantee’s 2005 annual report reported on the number of people reached
    through prevention activities as well as the number of educational materials
    produced and the number of materials distributed. However, we could not validate
    this data for the two sub-grantees visited because they could not provide supporting
    documentation for the numbers reported.

•   This same grantee’s semi-annual report ending March 2006 did not include results
    achieved during the reporting period. Instead, the report included cumulative results
    for the period of October 2004 to March 2006. As a result, an assessment of
    progress made during the reporting period was precluded.

•   Even though an inter-agency agreement required a partner agency to submit
    quarterly reports on its activities, no quarterly reports were submitted to USAID/Brazil
    that described the progress of its activities. Instead, the Ministry of Health’s TB
    coordinators for the states of Rio de Janeiro and Sao Paulo submitted a report to
    USAID/Brazil on the progress made in their respective areas when requested by the
    Mission. Progress reports did not report results on all the indicators defined in the
    work plans and the periods covered were not clearly defined.

•   Another organization did not report in its FY 2006 Annual Report on three of eight
    performance indicators included in its annual work plan, and on the number of
    infectious TB patients under supervised treatment.

Prior Mission management relied on the health team staff to comply with ADS
requirements, but the staff was unaware of the requirements. The Mission’s health team
leader as well as two other Mission officials left Brazil during the summer of 2006. The
new Mission Director has taken on CTO responsibilities for the health program but her
other duties do not allow her sufficient time to take on these responsibilities.

Without a review of performance data submitted by its partners, USAID/Brazil could not
reliably determine if partners were progressing towards objectives. Further, because the
partner organizations did not always have records supporting their progress reports,
reported results were often difficult to verify. Finally, the poor quality of results-related
information increased the probability of USAID/Brazil and its implementing partners
making funding and programmatic decisions based on incorrect information. To correct
the above deficiencies we are making the following recommendations.

    Recommendation No. 3: We recommend that USAID/Brazil reassign or hire
    someone to take on the duties of the Cognizant Technical Officer for health
    activities.




                                                                                          10
   Recommendation No. 4: We recommend that USAID/Brazil provide partner
   organizations and USAID/Brazil health officers with training such that they are
   able to accurately report on their performance, maintain sufficient supporting
   documentation and ensure the accuracy and reliability of the reported results.

Delays in Providing Advances to State
TB Program Impeded Program Activities
 Summary: ADS guidance states that managing for results entails ensuring agreement
 among partners and stakeholders and making intended results explicit. In support of
 the TB programs in the states of Rio de Janeiro and Sao Paulo, USAID awarded a
 contract to U.S. Centers for Disease Control and Prevention (CDC). In turn, CDC
 awarded a contract to Tulane University, which then awarded a contract to two local
 contractors. The local contractors were responsible for ensuring that the two state TB
 programs received timely financial support. However, the state TB programs did not
 receive funds for several months and did not know when funds would be made
 available. The delay in providing funds to the programs was due to the fact that how
 and when the funding should be provided was never clearly defined. Consequently,
 the local contractors could not release funds to the programs. Ultimately, the lack of
 funding impeded the state programs’ efforts to achieve the activities described in their
 work plans.

ADS 200.3.2.1 states that managing for results means defining and organizing work
around end results. This means making intended results explicit, ensuring agreement
among partners and stakeholders that proposed results are worthwhile, and organizing
day to day work and interactions to achieve results as effectively as possible. The
contracts between Tulane University and the Brazilian contractors state that Tulane
University will disburse advances of 25 percent of the funds committed after receiving an
expenditure report.

In fiscal year 1999, USAID signed an inter-agency agreement with CDC. During fiscal
years 2005 and 2006, USAID/Brazil obligated $1.9 million to CDC in support of
tuberculosis-related activities. CDC sub-contracted the management of the funds to
Tulane University of New Orleans. Tulane University channeled the funds for the two
state programs to two Brazilian organizations that were responsible for managing the
funds and reimbursing the states for expenses incurred in implementing the TB-related
activities defined in the associated work plans. During the audit, we noted that the
program in Sao Paulo had not received funds since April 2006 even though several
requests for funds were put forward by both USAID/Brazil and the state TB Program
Coordinator. The state program was finally funded in late December 2006, after Tulane
University had been contacted several times by USAID/Brazil and the Ministry of
Health’s National Program Coordinator and because of our audit.

In addition, in January 2007, we were informed that the program in Rio de Janeiro had
not yet received the 25 percent advance as called for in the contract between Tulane
University and the local contractor despite many inquiries from the Brazilian sub-
contractor on the status of the reimbursement. Apparently, the invoice submitted was
lost during processing by Tulane University. Therefore, the state TB Program
Coordinator was unaware of when the funds would be made available for program
activities.


                                                                                       11
The delays in providing financial support to the state TB programs occurred primarily
because the contract between Tulane University and the local contractors did not define
how and when the funds should be made available to the programs. Ultimately, a lack of
timely funding impeded the ability of the TB control programs of both Rio de Janeiro and
Sao Paulo to achieve the goals and targets set out in their respective work plans. In this
regard, it should be noted that, as training and other activities were canceled or
postponed due to a lack of funding, the concerned staff became discouraged and, in
some cases, the state coordinators lost credibility with the municipalities and the local
health facilities.

   Recommendation No. 5: We recommend that USAID/Brazil in conjunction with
   U.S. Centers for Disease Control and Prevention and Tulane University, (a)
   develop a plan for avoiding the funding delays that have affected the state TB
   programs in Rio de Janeiro and Sao Paulo and (b) verify that funds are received
   in a timely manner.

Did USAID/Brazil’s reporting on its health activities provide
stakeholders with complete and accurate information that
measured progress and the results achieved?

USAID/Brazil’s reporting on its health activities did not provide stakeholders with
complete and accurate information on the progress of the activities and the results
achieved. Our review of partner information and progress reports indicated that
USAID/Brazil provided incomplete or inaccurate results on its HIV/AIDS and tuberculosis
activities in its FY 2005 Annual Report. In addition, the Mission did not maintain official
files supporting reported data and did not perform data quality assessments. These
issues are discussed in the following sections.

USAID/Brazil Can Improve
Its Reporting

Summary: USAID guidance requires performance data to be precise and reliable and
also requires missions to take steps to ensure that submitted data is adequately verified
and supported. However, USAID/Brazil reported incomplete or inaccurate information on
HIV/AIDS and TB activities in its FY 2005 Annual Report. This occurred because the
Mission did not verify results reported by partners or maintain supporting documentation
in official files for the results reported by the Mission. Consequently, USAID/Brazil could
not reliably determine if program activities were meeting their objectives, addressing the
information needs of the Agency’s stakeholders, and ensuring that sound funding or
programmatic decisions are taken.

In order to manage for results and to produce credible reporting, ADS 203.3.5.1 requires
performance data to be precise and reliable. ADS 203.3.8.2 states that Missions should
use the U.S. fiscal year for reporting data in the Annual Report. If performance data are
not available on a quarterly or U.S. fiscal year basis, the local fiscal year or calendar
year may be used, but should be reported in the “data limitations” as not conforming to
the U.S. fiscal year.



                                                                                        12
USAID guidance, TIPS 12, Analyzing Performance Data, states that even valid
indicators have little value if the data collected does not correctly measure the variable
or characteristic encompassed by the indicator. TIPS 12 also emphasizes the
importance of documentation to maintenance of quality performance indicators and data.

We validated the results reported by USAID/Brazil in its FY 2005 Annual Report by
comparing the reported results to the results contained in documentation maintained by
the Ministry of Health’s national TB control program, by USAID/Brazil grantees, and by
the Mission staff. (We could not review USAID/Brazil reported results for FY 2006
because USAID missions had not yet reported on FY 2006 results). We found that
USAID/Brazil reported incomplete or inaccurate results in reporting on its HIV/AIDS and
TB activities. More specifically, we noted the following problems:

•   The Mission reported that 22 percent of priority municipalities in 2004 and 64 percent
    of priority municipalities in 2005 were implementing DOTS. However, based on a
    review of supporting documentation, 72 percent and 85 percent of priority
    municipalities offered DOTS in 2004 and 2005, respectively. In addition, a
    municipality may include many health facilities that may or may not have DOTS
    services. A more relevant indicator of DOTS coverage would be to measure health
    facilities with DOTS. Within the priority municipalities, 64 percent and 83 percent of
    health facilities were implementing DOTS in 2004 and 2005, respectively.

•   The Mission reported that, as a result of its assistance to one partner, fixed dose
    combination tablets had been developed to increase treatment compliance.
    However, the tablets had not yet been produced and made available to patients.

•   The Mission reported that during the first phase of the project, the number of pills
    that patients need to take was decreased from six to four during the first two months
    of treatment. However, no such reduction took place, and patients are still taking six
    pills.

•   The Mission reported that 32,000 health professionals were trained on the DOTS
    system, including 800 laboratory technicians and 200 laboratory managers. The
    Mission had no supporting documentation for these results, and information collected
    from USAID/Brazil partners did not reconcile with the Mission-reported figure. The
    partners’ documentation suggested that roughly 10,000 persons were trained (no
    breakdown between the number of laboratory technicians and laboratory managers
    was available).

•   The FY 2005 Annual Report stated that the cure rate level in the Sao Paulo and Rio
    de Janeiro project sites exceeded 80 percent. However, according to information
    contained in the MOH information system, the cure rate was greater than 80 percent
    in only one of the nine USAID/Brazil project sites.

•   The Mission reported that the average HIV/AIDS testing rate in Rio de Janeiro and
    Sao Paulo state project sites was 60 percent. However, for all USAID/Brazil assisted
    areas the average percentage of HIV/AIDS testing was greater than 70 percent and
    was near or above 80 percent in five of the nine project areas.




                                                                                       13
•    The Mission incorrectly reported that 4,440 condoms were sold through the social
     marketing program’s non-traditional outlets. However, according to PACT’s records,
     4.7 million condoms were sold through traditional and non-traditional outlets, with an
     estimated 40% of these sales being made through non-traditional outlets.

•    The Mission reported that 2 prevention street campaigns were conducted. However,
     information collected from partners indicated that 24 prevention street campaigns
     were conducted.

•    The Mission significantly misstated some FY 2005 accomplishments for its HIV/AIDS
     prevention activities by not reporting data for the complete fiscal year. The partner
     responsible for implementing HIV/AIDS activities indicated in its annual performance
     report that results only covered the period through June 2005. However, the Mission
     did not disclose in its FY 2005 Annual Report that the data reported did not cover the
     entire fiscal year. The Mission was not aware that data provided by the grantee did
     not include the entire fiscal year because Mission officials did not review or validate
     the data or maintain supporting documentation in official files. As a result, the
     Mission failed to report fourth quarter activities, which, in certain cases, was quite
     significant as shown in Table 3 below:

Table 3: Comparison of HIV/AIDS Reported and Documented Results for FY 2005

                                                      Results As Per        Documented
                  Selected Indicator                  Annual Report           Results
    Number of vulnerable people reached
                                                               395,000              605,731
    through prevention messages
    Field-based prevention activities carried out                4,362                9,365
    Persons trained on HIV/AIDS prevention                       3,730                5,288
    Educational materials distributed                          810,127            1,243,100
    Condoms distributed through traditional and
                                                             1,233,928            1,693,434
    non-traditional outlets

This occurred because the Mission did not track and record partner results submitted
through progress reports. Also, the Mission did not maintain supporting documentation
in official files for its reported results. In addition, the misstatements were attributable to
the CTOs not verifying the quality of information received from the partners, as required
by the ADS guidance.

Because the results reported by the Mission were incomplete and inaccurate,
USAID/Brazil could not reliably determine if program activities were meeting their
objectives or assess the progress of the program. Also, inaccurately reported results
could lead to misinformed funding or programmatic decisions. Therefore, we are making
the following recommendations.

     Recommendation No. 6: We recommend that USAID/Brazil maintain supporting
     documentation in official files relating to performance data reported in its annual
     reports.




                                                                                            14
   Recommendation No. 7: We recommend that USAID/Brazil disclose any
   limitations on the use of data reported in its annual reports.

   Recommendation No. 8:         We recommend that USAID/Brazil’s Cognizant
   Technical Officers periodically perform validation and verification of partners
   reported results.

Data Quality Assessments
Were Not Performed
 Summary: USAID guidance requires that data quality assessments be conducted on
 select indicators to ensure that the Mission and other users are aware of the strengths
 and weaknesses of the data. However, the Mission did not complete a data quality
 assessment for its health indicators. Mission staff was unaware of this requirements
 and Mission management did not verify that the requirements was met. As a result,
 program results for FY 2005 were not accurately reported.

USAID provides its operating units with a great deal of guidance to assist with their
ability to manage for results. Among the guidance is ADS 203.3.5.2, which states that
the purpose of a data quality assessment is to ensure that the Operating Unit and
Strategic Objective Teams are aware of the strengths and weaknesses of the data and
the extent to which the data integrity can be trusted to influence management decisions.
The ADS mandates that data reported to USAID/Washington for Government
Performance and Results Act reporting purposes or for reporting externally on Agency
performance must have had a data quality assessment conducted not more than three
years before submission. However, USAID/Brazil did not perform any data quality
assessments on reported health indicators. As with other findings reported in the above
sections, Mission staff was unaware of this requirements and Mission management did
not verify that the requirements were met.

A data quality assessment ensures consistent and reliable data for decision-making and
reporting purposes. The lack of an appropriate data quality assessment on reported
program performance indicators contributed to the weakness of the data collection,
analysis and reporting procedures. This created a vulnerability in which decision makers
could come to erroneous conclusions regarding the performance of USAID/Brazil’s
programs. To correct this deficiency we are making the following recommendation.

   Recommendation No. 9: We recommend that USAID/Brazil conduct data quality
   assessments on its health performance indicators as required by Automated
   Directive System 203.

Other Matters
During the course of the audit, two other matters that require corrective action by
USAID/Brazil came to our attention. More specifically, required financial audits were not
conducted and a suspected case of fraud involving USAID funds was not reported to the
Office of Inspector General (OIG). These issues are discussed in the following pages in
detail.




                                                                                      15
Annual Audits of Foreign
Recipient Not Completed
    Summary: According to ADS guidance, foreign non-profit organizations that expend
    $300,000 or more in USAID funds annually must have an annual audit. A Brazilian
    non-profit organization which spent more than $300,000 annually during the period of
    2003-2005 did not have annual audits conducted according to the OIG’s Guidelines for
    Financial Audits Contracted by Foreign Recipients (Guidelines). This occurred
    because USAID/Brazil officials were unaware that this non-profit was required to have
    an annual audit. In the absence of annual financial audits, the Mission increased its
    risks of financial loss and could not ensure that funds were accounted for and used for
    intended purposes in accordance with applicable laws and regulations.

ADS 591.3.2.1 states that foreign organizations that expend $300,000 or more in USAID
funds in one fiscal year must have an annual audit conducted in accordance with the
requirements detailed in the Guidelines. The ADS also states that contract/grant officers
must ensure that the responsible Regional Inspector General receives audits of foreign
recipients within nine months after the end of the fiscal year in which expenditures were
incurred. ADS 591.3.4.2 and 591.2c require that missions develop and maintain an
inventory of foreign organizations and ensure that required audits are conducted.

BEMFAM (Bem-Estar Familiar no Brazil), a Brazilian non-profit organization which spent
more than $300,000 annually during the period of 2003-2005, did not have annual audits
conducted according to the Guidelines and did not submit annual audit reports to
RIG/San Salvador. While USAID/Brazil requested BEMFAM to submit their annual
financial audits for the organization as a whole, no audit of USAID funds was performed
in accordance with the Guidelines.6

USAID/Brazil officials were unaware that BEMFAM was required to have annual audits
conducted in accordance with the Guidelines. USAID/Brazil’s FY 2005 risk assessment
stated that the Mission does not yet have a plan in place for non-federal audits. It also
incorrectly states that a non-federal audit has not been required because no local
grantees have expended $300,000 over a 12-month period. In addition, for long periods
between 2003 and 2005, the Mission did not have a financial analyst available to help
ensure that required audits were performed.

Without annual financial audits, the Mission increased its risks of financial loss and could
not ensure that funds were accounted for and used for intended purposes and in
accordance with applicable laws and regulations. In February 2006, USAID/Brazil took
steps to conduct an audit of BEMFAM for the period of 2002-2005. The preliminary
audit report had several findings which USAID/Brazil will not be able to act upon since
the agreement has ended. In order to ensure compliance with ADS audit requirements
we are making the following recommendations.




6
     Audits performed in accordance with the Guidelines include the auditor’s opinion on a fund
     accountability statement showing how USAID funds were used, a report on internal controls, a
     report on compliance with the USAID grant, contract, or agreement, and a review report on
     cost sharing contributions.


                                                                                              16
   Recommendation No. 10: We recommend that USAID/Brazil develop and
   maintain an inventory of awards to foreign recipients to determine required
   audits.

   Recommendation No. 11: We recommend that USAID/Brazil conduct annual
   audits of its foreign recipients in accordance with the Guidelines for Financial
   Audits Contracted by Foreign Recipients.

Suspected Fraud Not Reported
To Office of Inspector General

 Summary: According to ADS guidance, when there is reason to suspect that a
 voucher presented for payment contains fraudulent information, the Certifying Officer
 must refer the matter to the OIG. An allegation was made that a former director of a
 sub-grantee to a U.S. non-profit organization stole about $19,000 in USAID funds.
 However, the Mission failed to pass this information to the OIG. This occurred
 because Mission officials were not aware of the requirements for passing on
 information relating to fraud the OIG. If the OIG is not notified of allegations, a
 determination of fraud cannot be made, corrective actions may not be taken, and
 further losses may occur.


ADS 630.3.5.1 states that when there is reason to suspect that a voucher presented for
payment contains fraudulent information, the Certifying Officer must refer the matter to
the OIG. This requirement applies regardless of the dollar value of the suspected fraud.

A former Director of a sub-grantee to a U.S non-profit organization allegedly stole
$19,000 in USAID/Brazil funds (equivalent to 31,411 Brazilian Reales). The organization
was informed and in turn informed the Mission’s CTO about this matter. The sub-
grantee hired an audit firm to conduct an audit and to reconcile the accounts. It then
suggested in November 2005 to reimburse the stolen funds in the form of an in-kind
shared contribution. While USAID/Brazil agreed with this decision, it never informed the
OIG of this theft. The CTO did not know that the OIG should be informed. In addition,
he did not pass this information to the Certifying Officer when forwarding the NGO’s
vouchers for payment. If the Mission does not inform the OIG of an allegation of
impropriety, then a determination of fraud will likely not be made, corrective actions may
not be taken, and further losses may occur.

   Recommendation No. 12: We recommend that USAID/Brazil send a reminder to
   its Cognizant Technical Officers of their responsibilities in reporting suspected
   fraud to the Certifying Officer and the Office of Inspector General.




                                                                                       17
EVALUATION OF
MANAGEMENT COMMENTS
In its response, USAID/Brazil agreed with all 12 recommendations included in the draft
report. The Mission included an action plan in its response with a schedule to complete
implementation of ten recommendations (Recommendation Nos. 1-6 and 9-12). For
example, regarding Recommendation No. 2, the Mission’s health team is working with
implementing partners to establish specific targets and completion dates in their work
plans. In addition, for Recommendation No. 3, the Mission is finalizing the revision of
the Position Description document in order to announce the position and begin the
selection process to hire a CTO for the Health Program. We consider that a
management decision has been made for these recommendations. However, a
management decision has not been reached on Recommendation Nos. 7 and 8; the
Mission acknowledged the recommendations but did not propose specific actions to
address them.

Management decisions on these two audit recommendations can be recorded once
USAID/Brazil has developed a firm plan of action, with target dates, for addressing the
recommendations. The determination of final action for all the recommendations will be
made by the Audit Performance and Compliance Division (M/CFO/APC).




                                                                                    18
                                                                          APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether USAID/Brazil’s health activities achieved the planned results
described in USAID/Brazil’s Strategic Plan, in the Congressional Budget Justifications,
and in grant and contract documents and whether USAID/Brazil’s reporting on its health
activities provides stakeholders with complete and accurate information on the progress
and the results achieved.

In planning and performing the audit, we reviewed and assessed the effectiveness of
USAID/Brazil’s management controls related to its tuberculosis (TB) and HIV/AIDS
program activities. The USAID/Brazil management controls identified included the
Mission’s Performance Monitoring Plan, the Mission’s self assessment of management
controls through its Annual Federal Managers Financial Integrity Act, and the Portfolio
Review. Interviews were conducted with staff at the Mission, implementing partner
organizations, and sub-grantees.

In Brazil, the USAID-funded HIV/AIDS activities were implemented by Private Agencies
Coordinating Together (PACT.) PACT implemented its HIV/AIDS prevention related
activities under two awards and two program components: the NGO program providing
22 sub-grants to non-governmental organizations and the condom social marketing
program through the Future group via two sub-contractors John Snow International and
Sociedade Civil Bem Estar Familiar no Brasil (BEMFAM) as well as seven sub-grantees.
We visited PACT’s and two NGO sub-grantees’ HIV/AIDS prevention activities aimed at
high risk groups. We also visited BEMFAM, which was PACT’s major contributor to the
condom social marketing program.

With regard to TB activities, USAID/Brazil was providing technical assistance to the
Ministry of Health TB Control Program through BEMFAM, and other organizations
supported by USAID/Washington global field initiatives including the Pan American
Health Organization (PAHO), the U.S. Centers for Disease Control and Prevention
(CDC), Management Sciences for Health – Rational Pharmaceutical Plus (RPM), and
Tuberculosis Coalition for Technical Assistance (TBCTA). We judgmentally selected
Ministry of Health (MOH) TB sites to visit in the three states assisted by USAID/Brazil
and HIV/AIDS related organizations as shown in Table 4 below.

Table 4: Sampled Sites

    USAID/Brazil Assisted HIV/AIDS/TB Program            Population       Sample
  PACT NGO HIV/AIDS prevention program                      22              2
  PACT condom social marketing program                      2               1
  USAID/Brazil assisted municipalities with DOTS            15              6
  USAID/Brazil assisted health facilities with DOTS        130              6




                                                                                    19
                                                                                APPENDIX I


Fieldwork for this audit was performed in Brazil from November 27, 2006 through
December 14, 2006, at USAID/Brazil in Brasilia and in the three states assisted by
USAID/Brazil (Pernambuco, Rio de Janeiro and Sao Paulo).

During the period covered by our audit, October 1, 2004 through September 30, 2006,
USAID/Brazil obligated $20.7 million for its TB and HIV/AIDS program activities and
expended a total of $14.2 million.

Methodology
To answer the audit objectives, we interviewed Mission officials, staff of partner
organizations, and Ministry of Health National TB control program officials. We reviewed
the Mission strategic plans, Performance Management Plan, Congressional Budget
Justifications and annual reports. We also reviewed agreements, work plans and
progress reports of implementing partners to confirm progress reported towards
achieving planned results. We also conducted site visits, observed the program’s
operations, and tested reported data. Testing consisted of reviewing the supporting
documentation for selected months for selected activities. For example, for selected
training activities, we reviewed the attendance lists signed by the participants. At the
MOH TB sites visited, testing consisted of reviewing the register of patients tested for TB
and diagnosed TB positive by the patient register and the treatment card, and verifying
that the data reported by the health facility reconcile with the data reported by the
municipality and the state for the number of persons tested, the number of TB positive
patients, the number of persons under supervised treatment, the number of persons
cured, and the number of persons who discontinued treatment. We also compared the
MOH SINAN information system data with the information reported by USAID/Brazil.
Additionally, for selected months, we reviewed, among other items, the number of
persons reported as being tested for HIV/AIDS among the tuberculosis patients.

With regard to PACT and its sub-grantees, during our field visits, we verified the
accuracy of the reported data by comparing the information contained in their progress
reports to the supporting documentation with respect to the number of condoms
distributed, the number of educational materials produced and distributed, and the
prevention activities conducted among high risk groups as well as the list of participants
for training conducted.

To determine the significance of our findings, we judged that the Mission met planned
results if all of the conditions stipulated in indicator definitions included in the Mission's
Strategic Plan and Annual Report were completed as described based on our review of
supporting documentation and our observations during site visits. In judging the
significance of variances found during the audit between reported accomplishments and
supporting documentation, we considered variances of five percent or more to be
significant and reportable.




                                                                                           20
                                                                            APPENDIX II



MANAGEMENT COMMENTS
DATE:                March 20, 2007

TO:                  Acting RIG/San Salvador, Lyne Paquette

FROM:                Jennifer Adams, USAID/Brazil Director

SUBJECT:             Audit of USAID/Brazil’s Health Program (Report No. 1-512-07-006-P)


As per your memorandum sent on January 31st, this to inform that USAID/Brazil agrees with
all 12 recommendations included in the USAID/Brazil’s Health Program Audit Draft Report.

The Mission set the enclosed action plan in order to implement the referred
recommendations.




                                                                                      21
                                                                                          APPENDIX II


            ACTION PLAN – AUDIT OF USAID/BRAZIL’S HEALTH PROGRAM
    #   Recommendation                   USAID/Brazil Action              Due Date           Resp.
1       Update its Performance           The Program Officer and the      March 2007         Health Team
        Management Plan for its          Health Team are working
        health strategy with             together to review and                              Program
        measurable indicators that       update the Health strategy                          Officer
        include baseline data and        PMP.
        targets, and include only
        those indicators that the
        Mission can materially
        affect through its activities.
2       Develop specific planned         The Health team is working       February 2007      Health Team
        outputs that include targets     with implementing partners
        and expected completion          to establish specific targets
        dates in partners' work          and completion dates in their
        plans.                           work plans. This action will
                                         take into consideration the
                                         indicators set at the PMP
                                         and the Operational Plan
                                         2007.
3       Reassign or hire someone         The Mission is finalizing the    March 2007         Program
        to take on the duties of the     revision of the Position                            Officer
        Cognizant Technical              Description document in
        Officer (CTO) for health         order to announce the                               Health Team
        activities.                      position and begin the
                                         selection process to hire a                         HR
                                         CTO for the Health Program.
4       Provide partner                  Based on meetings with the       March 2007         Program
        organizations and USAID          implementing partners and        (Matrix)           Officer
        health officers and the          on the Audit’s Report
        CTO with training such that      findings, the Health Team        December           Health Team
        the partners are able to         and the Program Officer are      2007 (trainings)
        accurately report on their       assembling a training needs
        performance and maintain         matrix on A&A, reporting and
        sufficient supporting            performance management
        documentation.                   issues. Suitable training will
                                         be provided to the Health
                                         Team and partners’ key
                                         personnel.
5       Develop a plan for avoiding      The Health Team has              March 2007         Health Team
        the funding delays that          warned CDC about this
        have affected the state TB       situation and to set a                              CDC
        programs in Rio de Janeiro       calendar of payments with
        and Sao Paulo and verify         Tulane University to expedite
        that funds are received in a     the payments to TB
        timely manner.                   programs and avoid future
                                         delays.
6       Maintain supporting              The Program Officer will be      May 2007           Program
        documentation in official        working together with the                           Officer
        files relating to                new Health CTO in order to
        performance data reported        have supporting                                     Health CTO
        in its annual reports.           documentation for
                                         implementing mechanism
                                         and reporting organized and
                                         available in official files.



                                                                                                   22
                                                                                     APPENDIX II


#    Recommendation                 USAID/Brazil Action              Due Date          Resp.
7    Disclose the use of any        Acknowledged
     limitations on data reported
     in its annual reports.

8    Perform validation and         Acknowledged. This will be
     verification of partners       highlighted as a key
     reported results.              responsibility for the new
                                    Health CTO.
9    Perform a data quality         The Mission will be              June 2007         Health CTO
     assessment as required by      scheduling the financial audit
     the Automated Directive        and data quality assessment
     System.                        exercise with the Health
                                    Program implementing
                                    partners
10   Develop and maintain an        The Mission is developing an     February 2007     Program
     inventory of foreign           inventory of all USAID/Brazil                      Officer
     recipients that require        foreign recipients that
     audits.                        received more than $                               Procurement
                                    300,000 in their fiscal year.                      Specialist
                                    The Procurement Specialist
                                    will be responsible to
                                    maintain the inventory and
                                    follow-up audits with the
                                    CTOs.
11   Conduct annual audits of       The Mission is developing an     February 2007     Program
     its foreign recipients in      inventory of audits and Data                       Officer
     accordance with the            Quality Assessments and a
     Guidelines for Financial       tracking calendar for all
     Audits Contracted by           USAID/Brazil programs.
     Foreign Recipients.
12   Send a reminder to its         The Mission will be issuing a    February 2007     Program
     CTOs to report suspected       Memo to all USAID/Brazil                           Officer
     fraud to the Certifying        CTOs reminding them of
     Officer and the Office of      mandatory reporting to the
     the Inspector General.         Office of Inspector General
                                    of any suspected fraud
                                    involving USAID awardees.




                                                                                               23
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
